<html>
<title> - BUSINESS MEETING: COMMITTEE RESOLUTION 115-9: A COMMITTEE RESOLUTION TO ALLOCATE FUNDS FROM THE COMMITTEE RESERVE FUND</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




BUSINESS MEETING: COMMITTEE RESOLUTION 115-9: A COMMITTEE RESOLUTION TO  

                   ALLOCATE FUNDS FROM THE COMMITTEE 

                              RESERVE FUND

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 7, 2018

                               __________

      Printed for the use of the Committee on House Administration



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html 
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
32-365                   WASHINGTON : 2018                 
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia


















 
BUSINESS MEETING: COMMITTEE RESOLUTION 115-9: A COMMITTEE RESOLUTION TO 
             ALLOCATE FUNDS FROM THE COMMITTEE RESERVE FUND

                              ----------                              


                        WEDNESDAY, MARCH 7, 2018

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 1:07 p.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Comstock, 
Loudermilk, and Brady.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director; Cole Felder, Deputy General Counsel; Dan 
Jarrell, Legislative Clerk; Erin McCracken, Communications 
Director; Jamie Fleet, Minority Staff Director; and Eddie 
Flaherty, Minority Chief Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for today's committee hearing. A quorum is 
present, so we may proceed.
    The meeting record will remain open for 5 legislative days 
so that Members may submit any materials that they wish to be 
included herein.
    There is one item on our docket today, Committee Resolution 
115-9, a resolution to disburse $200,000 from the Committee's 
reserve fund to the Foreign Affairs Committee. This 
disbursement is in response to a request the Committee received 
from the Chairman of the House Committee on Foreign Affairs. 
The disbursement will provide resources for the operations to 
the Tom Lantos Human Rights Commission.
    I would now like to recognize my colleague and the 
Committee's Ranking Member, Mr. Brady, for the purpose of 
providing an opening statement.
    [The statement of Chairman Harper follows:]
    Mr. Brady. Mr. Chairman, I have consulted with the minority 
leadership of the Foreign Affairs Committee, and they are 
supportive of the request, and so am I. And I urge the 
Committee to pass this resolution.
    And I yield back the balance of my time.
    [The statement of Mr. Brady follows:]
    The Chairman. Thank you, Mr. Brady.
    Does any other Member wish to be recognized for the purpose 
of an opening statement?
    Seeing none, I move the Committee adopt Committee 
Resolution 115-9. The question is on the motion. All those in 
favor, signify by saying aye.
    Any opposed, nay.
    Seeing none, unanimously, in the opinion of the Chair, the 
ayes have it, and the motion is agreed to. Without objection, 
the motion to reconsider is laid upon the table.
    Does any Member wish to submit supplemental or minority 
views?
    Seeing none, for all the matters considered here today, I 
would ask unanimous consent that the staff be authorized to 
make technical and conforming changes, if necessary. Without 
objection, so ordered.
    That concludes today's markup. Without objection, the 
markup is adjourned.
    [Whereupon, at 1:09 p.m., the committee was adjourned.]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
